/' ~
  Sl!llVICES




 +~, ~
~"ó~ ~t.
 l..Ò'\-d,;a
                                DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                  .                                           Office of Inspector General



                                                                                                                              Washington, D.C. 20201
                                                                                   AUG 2 6 2009




               TO: Cindy Mann
                                       Director of the Center for Medicaid and
                                         State Operations


               FROM: StUà wright                       /S/
                                       Deputy Inspector General
                                         for Evaluation and Inspections

                                                                             .
               SUBJECT: Memorandum Report: "MSIS Data Usefulness for Detecting Fraud, Waste, and
                                       Abuse," OEI-04-07-00240


               This report provides information about the Medicaid Statistical Information System (MSIS) data
               from fiscal years (FY) 2004 to 2006. Specifically, it provides information on: (1) the length of
               time that the States and the Centers for Medicare & Medicaid Services (CMS) took to submit and
               release the MSIS data; (2) CMS disclosure and documentation of    the accuracy ofMSIS data; and
               (3) the extent to which the MSIS captued information for detecting fraud, waste, and abuse.

               We found that, on average, FYs 2004-2006 MSIS data took an average of over 1 Y2 years after
               the initial State data submission before CMS released them to the public. This timeframe
               included an average of 6 months that States took to submit the MSIS fies in a CMS-acceptable
               format and averages of 4 and 9 months for CMS to validate and release the files to the public,
               respectively. In addition, CMS did not fully disclose or document information about the
               accuracy of   the MSIS data. Finally, as of June 2009, the MSIS had not captured many data
               elements that can assist in fraud, waste, and abuse detection.l

               Timely, accurate, and comprehensive MSIS data can be used to meet the Health Care Fraud
               Prevention and Enforcement Action Team (HEAT) objectives.2 In May 2009, HHS and the
               Department of Justice established HEAT as an interagency effort to combat health care fraud.                                 3



               1 The Offce ofInspector General (OIG) conference call with CMS, June 2009.
               2 Departent of
                               Health and Human Services (HHS). "Breaking News: Medicare Fraud Strike Force Operations
               Lead to Charges Against 32 Doctors and Health Care Executives for More Than $16 Milion in Alleged False
               Biling in Houston." Available online at h ://www.hhs. 'ov/sto medicarefraud/. Accessed on June 19,2009.
               3 HHS. "Attorney General Holder and HHS Secretary Sebelius Announce New Interagency Health Care Fraud
               Prevention and Enforcement Action Team." Available online at
               htt ://www.hhs. ov/news/ ress/2009 res/05/20090520a.htinI. Accessed on June 19,2009.


               o EI -04-07 -00240                                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 2 – Cindy Mann


HEAT includes a focus on expanding data usage to more effectively identify and prevent
Medicaid fraud.

BACKGROUND

In 1965, Title XIX of the Social Security Act established Medicaid to provide certain basic
services to categorically and medically needy populations. 4 Medicaid programs are jointly
funded by Federal and State governments but solely administered by States pursuant to Federal
statutes, regulations, and policies. CMS oversees State Medicaid programs and ensures that
State-submitted expenditures for Federal reimbursement are appropriate. In FY 2006, Medicaid
covered over 57 million beneficiaries at a cost of over $308 billion. 5 6 The Federal share of this
cost was approximately $174 billion. 7

Medicaid Statistical Information System
CMS maintains the MSIS database, the only nationwide Medicaid eligibility and claims
information source. In FY 1984, MSIS was approved as a voluntary State reporting option of
beneficiary-level Medicaid fee-for-service claims data in an electronic format. 8 This option
permitted States to forego data submission via a paper (i.e., hardcopy) format. The Balanced
Budget Act of 1997 mandated MSIS-program participation from the 50 States and the District of
Columbia (hereinafter referred to as States) for Medicaid claims filed on or after January 1,
1999. 9 To improve the timeliness of the MSIS files’ release, CMS encourages States to submit
their files electronically. 10 As of July 2009, 34 States were sending their MSIS files
electronically. 11


4 42 U.S.C. §§ 1396-1396v, Social Security Act, §§ 1901-1936.
5 “MSIS State Summary Data Mart,” 2006 Unique Eligibilities Count. Available online at http://msis.cms.hhs.gov/.
Accessed on December 1, 2008.
6 CMS, Office of the Actuary, National Health Statistics Group, Health Expenditure Data, Table 11: Expenditures
for Health Services and Supplies Under Public Programs, by Type of Expenditure and Program: Calendar Year
2006. Available online at http://www.cms.hhs.gov/NationalHealthExpendData/downloads/tables.pdf. Accessed on
December 1, 2008.
7 Ibid.
8 The MSIS reporting option was part of the annual State submission of the Statistical Report on Medical Care:
Eligibles, Recipients, Payments and Services (HCFA-2082), started in FY 1972. As of FY 1997, the MSIS data can
be provided in one of two ways: (1) the annual submission of the hardcopy 1984 version, or (2) quarterly fixed
electronic format of Medicaid eligibility and claims. States that successfully comply with all MSIS requirements
and submit data for a full fiscal year can receive a waiver from submitting the hardcopy HCFA-2082. CMS
technical comments on OIG’s draft memorandum report, August 2009.
9 42 U.S.C. § 1396b(r). In addition to requiring fee-for-service data, the Balanced Budget Act of 1997 mandated

the electronic transmission of individual enrollee encounter data. Encounter data provide details about services
provided to Medicaid beneficiaries enrolled in managed care.
10 States are encouraged to submit their files via Electronic File Transmission (EFT) instead of cartridges or tape.
This results in faster transmission and retransmission of the MSIS data. The EFT is identified in the MSIS Tape
Specification and Data Dictionary, Release 3. Available online at http://www.cms.hhs.gov/MSIS. Accessed on
August 11, 2009.
11 CMS technical comments on OIG’s draft memorandum report, August 2009.




OEI-04-07-00240                              MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 3 – Cindy Mann


The MSIS system of records notice indicates that CMS collects MSIS data from States “to
establish an accurate, current, and comprehensive database containing standardized enrollment,
eligibility, and paid claims of Medicaid beneficiaries to be used for the administration of
Medicaid at the Federal level.” 12 The system of records also notes that CMS collects MSIS data
to “produce statistical reports, support Medicaid-related research, and assist in the detection of
fraud and abuse in the Medicare and Medicaid programs.” 13 According to CMS, the MSIS is
also used for health care research and evaluation activities, program utilization and expenditure
forecasts, policy alternatives analysis, congressional inquiry responses, and other health-related
database matches. 14

The MSIS timeliness, reliability, and comprehensiveness are further important because the data
is also used as an information source for other CMS databases, such as the MSIS State Summary
Data Mart, the MSIS Drug Utilization Data Mart, the Medicaid Analytical Extract, the Enterprise
Cross-Reference Database, and the Medicaid Integrity Group (MIG) Data Engine. See
Appendix A for descriptions of these databases

CMS Efforts To Use MSIS Data for Detecting Medicaid Fraud, Waste, and Abuse
The Deficit Reduction Act of 2005 (DRA) included several provisions to reduce Medicaid fraud,
waste, and abuse. For example, it created a new Medicaid Integrity Program and appropriated
$100 million over 2 years for CMS to implement the program. The DRA appropriated an annual
budget of $75 million for the program’s continued operations postimplementation. 15

To oversee the Medicaid Integrity Program planning and implementation, CMS created the
Medicaid Integrity Program Advisory Committee. 16 The committee identified Medicaid data
collection, including MSIS data, as key to the Medicaid Integrity Program’s success. 17

The Medicaid Integrity Group. In 2006, CMS established MIG, as part of the Center for
Medicaid and State Operations (CMSO), to implement DRA’s Medicaid Integrity Program and

12 71 Fed. Reg. 65527 (Nov. 8, 2006). The Privacy Act of 1974 (Privacy Act); (5 U.S.C. § 552a) required agencies
to publish in the Federal Register a notice of the existence and character of a “system of records,” such as MSIS.
The Privacy Act defines a “system of records” as “a group of any records under the control of any agency from
which information is retrieved by the name of the individual or by some identifying number, symbol, or other
identifying particular assigned to the individual.”
13 System of Records No. 09-70-0541. 71 Fed. Reg. 65527 (Nov. 8, 2006). This system of records states that MSIS

will also be used to combat “waste.” Available online at
http://www.cms.hhs.gov/PrivacyActSystemofRecords/downloads/0541.pdf. Accessed on December 1, 2008.
14 CMS, MSIS Overview. Available online at http://www.cms.hhs.gov/MSIS/. Accessed on December 1, 2008.
15 DRA, section 6034(a) (codified at 42 U.S.C. § 1396u-6).
16 The Medicaid Integrity Program Advisory Committee is made up of State Medicaid Directors; State Program
Integrity Directors; Medicaid Fraud Control Unit Directors representing 16 States; as well as representatives of the
Federal Bureau of Investigation, HHS OIG, and CMS regional offices. Source: CMS, Comprehensive Medicaid
Integrity Plan, June 2008. Available online at
http://www.cms.hhs.gov/DeficitReductionAct/Downloads/FY08CMIP.pdf. Accessed on December 1, 2008.
17 CMS, Comprehensive Medicaid Integrity Plan (CMIP), August 2007. Available online at
http://www.cms.hhs.gov/DeficitReductionAct/Downloads/CMIP2007.pdf. Accessed on December 1, 2008.


OEI-04-07-00240                              MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 4 – Cindy Mann


carry out CMS’s national strategy to combat Medicaid fraud, waste, and abuse. 18 CMSO and its
contractors seek to identify improper payments and coordinate integrity efforts with various State
and local entities. 19

In 2007, MIG began soliciting input from other CMS components, Department of Justice, and
OIG officials involved in Medicaid fraud detection to identify useful data elements for Medicaid
fraud, waste, and abuse detection (hereinafter referred to as MIG-identified data elements) and
identified 182 such data elements. Not all of these data elements are currently captured in the
MSIS database.

Additionally, a Medicaid Data Integration Workgroup has also been established. This
workgroup consists of consultants from a number of entities including: CMSO, the CMS Office
of Financial Management, the CMS Office of Information Services (OIS), OIG, and several
States. To address multiple business functions across CMS, the workgroup recently
recommended adding approximately 96 more variables to the 182 MIG-identified data elements
(bringing the total to 278).

In 2008, CMS established a new system of records titled, “Medicaid Integrity Program
System.” 20 The primary purpose of this system is to “establish an accurate, current, and
comprehensive database containing standardized enrollment, eligibility, and paid claims of
Medicaid beneficiaries to assist in the detection of fraud, waste, and abuse.” 21 This system,
commonly referred to as the MIG Data Engine, became operational in November 2008 and is
using MSIS data to support MIG’s activities. 22 According to CMS officials, this system has
resulted in the identification, or probable identification, of substantial overpayments. 23

MSIS File Submission and Data Validation Processes
CMS requires States to submit one Medicaid-eligibility and four claims data files to CMS
quarterly. 24 25 CMS then tests the files to ensure that the data pass quality review. The MSIS
files that pass quality review are posted to the production database on CMS’s mainframe
computer and are considered validated MSIS data.




18  CMS, CMIP, July 2006. Available online at http://www.cms.hhs.gov/DeficitReductionAct/Downloads/CMIP
Initial July 2006.pdf. Accessed on December 1, 2008.
19 Ibid.
20 System of Records No. 09-70-0599. 73 Fed. Reg. 11638 (Mar. 4, 2008). CMS’s Medicaid Integrity Program

established the new system of records.
21 Ibid.
22 CMS technical comments on OIG’s draft memorandum report, August 2009.
23 Ibid.
24 “The State Participation Procedures Manual.” Available online at http://www.cms.hhs.gov/MSIS. Accessed on

December 1, 2008.
25 The four types of MSIS claims files are inpatient services, long term care, prescription drug, and “other” claims.




OEI-04-07-00240                               MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 5 – Cindy Mann


The MSIS files that do not pass quality review are returned to States for correction and
resubmission. CMS does not limit the number of times States may resubmit corrected MSIS data
or specify the amount of time States have to make corrections and resubmit the revised data.
After all five files successfully pass quality reviews, CMS releases the data to most public
users. 26 The processes of MSIS file submission and data validation occur in three phases: initial
submission, quality review, and final release.

Initial submission. The initial submission phase starts at the end of each quarter and ends when
CMS receives and successfully copies a properly formatted MSIS file to its mainframe computer
for quality review.

File submission schedules and formatting requirements are defined in the MSIS Tape
Specification and Data Dictionary (MSIS Data Dictionary). 27 States must submit their four
Medicaid claims files to CMS within 45 days after the end of each quarter. 28 However, CMS
allows States to submit their Medicaid eligibility file up to 3½ months after the end of each
quarter. 29 If the files are formatted improperly, CMS rejects the submission. States must then
resubmit properly formatted files before the next phase may begin.

Quality review. The quality review phase starts when CMS copies a properly formatted State file
to its mainframe computer. This phase ends when the file passes data validation edits and
distributional checks defined in the MSIS Data Dictionary maintained on CMS’s public Web
site.

Data validation edits occur when the MSIS Data Validation computer program compares the
Medicaid data within each file to formatting rules and permitted error rates (i.e., error tolerances)
established in the MSIS Data Dictionary. 30 If a file’s errors exceed the established error
tolerances, CMS rejects the file and returns it to the State for correction and resubmission.

CMS’s MSIS Data Validation program produces error reports that show the number and types of
errors identified. CMS shares the error reports with States to facilitate underlying data-problem
identification and correction.


26 According to CMS officials, MIG receives and uses MSIS data prior to the quality review. CMS technical
comments on OIG’s draft memorandum report, August 2009.
27 CMS. The MSIS Tape Specification and Data Dictionary, Release 2, version 5. Available online at

http://www.cms.hhs.gov/MSIS. Accessed on February 6, 2009.
28 The “State Participation Procedures Manual.” Available online at http://www.cms.hhs.gov/MSIS. Accessed on

December 1, 2008.
29 Ibid.
30 The MSIS Data Validation program is a system of mainframe computer applications that copy, edit, and track
files throughout the MSIS file submission and data validation process. These applications include the initial
submission formatting checks, quality review data validation edits, as well as the final release data-posting routines.
The MSIS Data Validation program does not control or track distributional checks performed by CMS’s data quality
contractor, Mathematica Policy Research, Inc. (Mathematica).


OEI-04-07-00240                               MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 6 – Cindy Mann


Default error tolerances are defined in the MSIS Data Dictionary. However, not all State MSIS
files are subject to the default error tolerances. CMS periodically adjusts individual State error
tolerances to allow particular files or sets of files to pass data validation tests. For example,
CMS may adjust MSIS error tolerances when a State’s data systems are unable to accommodate
MSIS file formats or when unique State coding issues trigger false errors.

When the data files pass data validation edits, CMS forwards the data to its data quality
contractor, Mathematica, to conduct distributional checks. 31 These checks reveal data
irregularities by comparing mathematical averages, ranges, frequency distributions, and payment
totals to expected outcomes. For example, Mathematica’s distributional checks may analyze
MSIS claims files to calculate a State’s average Medicaid payment for a specific item or service
and compare it to the average payment from a previous quarter to identify significant or
unexpected changes. Mathematica also compares the MSIS data to other CMS sources such as
State waiver programs. 32

CMS allows Mathematica to work directly with States to research and correct data irregularities
(i.e., anomalies). For example, Mathematica found that a State submitted an MSIS eligibility file
with all records marked as “dual-eligible” (i.e., Medicaid beneficiaries who are also eligible for
Medicare benefits). Mathematica worked with the State and determined that this was a
programming error that required State correction and file resubmission.

Anomalies that are not caused by errors in the underlying data are documented and disclosed to
MSIS data users in the MSIS “State Anomalies/Issues Report” maintained on CMS’s public Web
site. 33 For example, Mathematica identified a dramatic increase in the total number of
Medicaid-eligible beneficiaries reported in a State’s quarterly eligibility file. However, changes
in the State’s eligibility rules justified the increase, which was then documented in the MSIS
“State Anomalies/Issues Report.”

Final release. The final release phase starts when Mathematica notifies CMS that a file has
passed quality review and ends when CMS posts the validated MSIS data in the file to a
production database on its mainframe computer. In general, most public MSIS data users do not
have access to MSIS data until CMS posts the validated data to its production database. 34


31 CMS. Active Projects Report 2008 Edition, Project Number 500-00-0047/04, MSIS Expansion and Data Quality
Support. Available online at http://www.cms.hhs.gov/ActiveProjectReports/05_APR_2008_Edition.asp. Accessed
on December 1, 2008.
32 CMS technical comments on OIG’s draft memorandum report, August 2009.
33 CMS. MSIS “State Anomalies/Issues Report.” Available online at
http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/Downloads/anomalies.pdf.
Accessed on December 1, 2008.
34 According to CMS officials, MIG uses these files for preliminary analysis before they are validated. Some

internal users, e.g., OIG, have direct mainframe access to validated MSIS files. Some external users, e.g., the
Congressional Budget Office, have established data use agreements with CMS in which they receive predefined
extracts of validated MSIS files.


OEI-04-07-00240                            MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 7 – Cindy Mann


CMS officials stated that most MSIS data users require complete sets (i.e., one Medicaid eligible
file and four Medicaid claims files) of quarterly MSIS data for analysis. Therefore, CMS does
not typically post MSIS files to its production database until all five files have cleared quality
review.

Related Work
In May 2009, OIG released a report that assessed the extent to which CMS accepts MSIS
submissions without encounter data. 35 Encounter data are the primary record of Medicaid
services provided to beneficiaries enrolled in capitated Medicaid managed care. In a February
2002 report, the Government Accountability Office (GAO) recommended that CMS analyze
MSIS data to detect potentially improper Medicaid payments. 36 GAO’s June 2006 follow-up
report reiterated this recommendation because it found that CMS had not included MSIS data in
its Medicaid oversight activities. 37

METHODOLOGY

Scope
To assess the usefulness of MSIS data for detecting fraud, waste, and abuse, we determined:

•    the average length of time MSIS FYs 2004–2006 files were in each phase of file submission
     and data validation processes, as of June 2007, before release to the public;
•    the extent to which CMS disclosed and documented information about the accuracy of MSIS
     data as of June 2007; 38 and
•    the extent to which, as of September 2008, MSIS contained data elements useful for fraud,
     waste, and abuse detection.

Data Sources
We reviewed the following documents to understand the MSIS program’s Federal and State
requirements:

•    DRA
•    “State Participation Procedures Manual”
•    MSIS Data Dictionary
•    MSIS “Data Anomalies/Issues Report”


35 “Medicaid Managed Care Encounter Data: Collection and Use,” OEI-07-06-00540.
36 “Medicaid Financial Management: Better Oversight of State Claims for Federal Reimbursement Needed,”
GAO-02-300, February 2002. Available online at http://www.gao.gov/new.items/d02300.pdf. Accessed on
December 1, 2008.
37 “Medicaid Financial Management: Steps Taken to Improve Federal Oversight But Other Actions Needed to
Sustain Efforts,” GAO-06-705, June 2006. Available online at http://www.gao.gov/new.items/d06705.pdf.
Accessed on December 1, 2008.
38 CMS extracted processing data from the MSIS Data Validation program for our review in June 2007.




OEI-04-07-00240                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 8 – Cindy Mann


We used data from the following sources to assess MSIS data usefulness for fraud, waste, and
abuse detection:

•    CMS’s MSIS Data Validation program;
•    Mathematica’s MSIS Data Quality Review Status Reporting Database; and
•    MIG’s compilation of data elements that can assist in Medicaid fraud, waste, and abuse
     detection.

Data Collection and Analysis
We interviewed officials from CMSO, OIS, and Mathematica to gather information about the
MSIS file submission and data validation processes. We also interviewed MIG officials to
gather information about the extent to which they compiled data elements that can be useful for
Medicaid fraud, waste, and abuse detection.

Determining MSIS file processing times. To determine the number of days during which MSIS
files spent in each phase of the file submission and data validation processes (initial submission,
quality review, and final release), we analyzed the processing dates of 3,060 State FYs
2004–2006 quarterly MSIS files as of June 2007. 39 As of that date, CMS had validated and
released 54 percent (1,655 of 3,060) of the files. We obtained processing dates from CMS’s
MSIS Data Validation program and Mathematica’s Data Quality Review Status Reporting
Database.

•    For the initial submission phase, we counted the number of days from the end of the quarter
     to the first time CMS successfully copied a State’s MSIS file submission to its mainframe
     computer.

•    For the quality review phase, we counted the number of days from the end of the initial
     submission phase to the date when Mathematica reported that the MSIS data completed
     distributional checks.

•    For the final release phase, we counted the number of days from the end of the quality review
     phase to the date when CMS posted validated MSIS data to the production database on its
     mainframe computer.

For the 1,655 MSIS files that completed all phases of the MSIS file submission and data
validation processes as of June 2007, we calculated, by file type, the average, median, minimum,
and maximum days during which they were in each phase.




39 Each quarter, CMS requires States to submit one eligibility file and four claims files of MSIS data. For
FYs 2004–2006, CMS required the 51 States to submit a total of 3,060 quarterly MSIS files (3 years x 51 States x
4 quarters x 5 files = 3,060 required MSIS files).


OEI-04-07-00240                             MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 9 – Cindy Mann


We also counted, by file type, the number of initial submission files that States did not submit by
the established due dates and 6 months (180 days) after CMS’s due dates. We then counted, by
file type, the number of States that submitted at least one file after CMS’s due dates and
6 months after CMS’s due dates.

For claims files, we calculated CMS’s due date as 45 days from the end of the quarter and the
6-month-late date as 225 (45 + 180) days from the end of the quarter. For eligibility files, we
based our analysis on the more conservative delayed MSIS eligibility file submission
requirement (up to 105 days). 40 We calculated CMS’s eligibility file due dates as 105 days from
the end of the quarter and the 6-month-late mark as 285 (105 + 180) days from the end of the
quarter.

We also determined the number of State file submissions, including the initial submission,
required for MSIS data to clear the data validation process quality review phase. We counted the
number of times that States resubmitted MSIS files before Mathematica reported to CMS that the
data completed distributional checks and then added one for the initial submission. For example,
MSIS files that completed the quality review phase without correction required one State file
submission (zero resubmission plus one initial file submission).

Assessing CMS’s disclosure and documentation of MSIS data accuracy. To assess the extent to
which CMS disclosed and documented the accuracy of MSIS error tolerance adjustments, we
determined the number of CMS data validation adjustments that increased error tolerances above
default levels documented in the MSIS Data Dictionary. To do so, we reviewed 9,639 error
tolerance adjustment records that CMS programmers extracted from the MSIS Data Validation
program as of June 2007. We first eliminated 7,197 adjustments (75 percent) that had no effect
on the MSIS Data Validation program’s error tolerance levels (inactive adjustments). 41 The
remaining 2,442 adjustments (25 percent) increased error tolerances to levels above or equal to
those programmed into MSIS Data Validation software (active adjustments). Of the 2,442 active
adjustments, we reviewed 1,528 adjustments (63 percent) that increased the error tolerance levels
above defaults documented in the MSIS Data Dictionary. We did not review 914 active
adjustments that set the error tolerances at levels equal to the defaults documented in the MSIS
Data Dictionary. See Appendix B for a breakdown of inactive and active error tolerance
adjustments as of June 22, 2007.

To assess the extent of the 1,528 error tolerance adjustments that we reviewed, we determined
the earliest and latest adjustment dates, counted the number of adjustments, and calculated the
percentage of total adjustments per year. We also counted the number of States and MSIS data

40 According to the “MSIS State Participation Procedures Manual,” States may submit MSIS quarterly eligibility
files on a regular or delayed submission schedule 45 days or 3½ months from the end of the quarter, respectively.
For our review, we define 3½ months as 105 days. Available online at http://www.cms.hhs.gov/MSIS/. Accessed
on August 7, 2009.
41 These inactive adjustments included adjustments to MSIS files of U.S. territories, data elements not subjected to
data validation tests, unused MSIS data elements, and invalid MSIS file type/data element combinations.


OEI-04-07-00240                              MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 10 – Cindy Mann


elements affected by the 1,528 active error tolerance adjustments. Finally, we counted the
number of States and MSIS data elements for which CMS increased the data validation error
tolerance levels to 100 percent. Error tolerance levels set to 100 percent allow an unknown
number of errors to be present in the data when it passes quality review.

To assess controls over error tolerance adjustments, we asked CMS for justification and approval
documentation related to the 1,528 error tolerance adjustments reviewed. To determine whether
MSIS data users had access to information about error tolerance adjustments, we searched the
MSIS Data Dictionary and the MSIS “State Anomalies/Issues Report” for references of these
1,528 error tolerance adjustments.

Assessing data elements contained in MSIS. To determine the extent to which MSIS data
contained information that can assist in Medicaid fraud, waste, and abuse detection, we
compared existing MSIS data elements, as of September 2008, to those that MIG identified as
assisting in fraud, waste, and abuse detection.

First, we consolidated similar data elements from the 182 individual data elements that MIG
identified into 100 data elements. 42 Second, we sorted the 100 consolidated data elements into
four categories: (1) Service Provider Identifiers; (2) Procedure, Product, and Service
Descriptions; (3) Billing Information; and (4) Beneficiary and Eligibility Information. Third, we
consolidated similar data elements from MSIS’s 255 individual data elements into 85 data
elements. 43 44 Finally, to identify equivalent data elements, we compared the 100 consolidated
data elements that MIG identified, to the 85 consolidated MSIS data elements. 45 MIG officials
reviewed and concurred with our data consolidation and comparison approaches. See
Appendix C for comparisons of data elements consolidated from their listing and the MSIS Data
Dictionary.

Limitations
We did not verify the accuracy of the MSIS data files or evaluate controls over Mathematica’s
distributional checks.

We did not review the accuracy of existing differences in the actual and reported MSIS file error
tolerances because CMS periodically adjusts individual State error tolerances to allow particular
files or sets of files to pass data validation tests. For example, CMS may adjust MSIS error

42 For example, MIG collects the “amount billed—per item” and “total billed or charged amount—total claim” for
both institutional and medical Medicaid claims. We consolidated these four data elements into a single “amount
billed” data element.
43 For example, each of the four MSIS claim files (i.e., inpatient, long term care, prescription drug, and “other”)
include an “amount charged” data element. We consolidated these four data elements into a single “amount
charged” data element.
44 For this analysis we used the MSIS File Specification and Data Dictionary, Release 3 effective February 15, 2009,
because it provided the most current listing of MSIS data elements.
45 For example, we considered the “amount billed” MIG data element to be equivalent to the “amount charged”
MSIS data element.


OEI-04-07-00240                              MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 11 – Cindy Mann


tolerances when a State’s data systems are unable to accommodate MSIS file formats or when
unique State coding issues trigger false errors. We report only on the extent to which CMS was
able to provide documentation to support the rationale for making changes to the error
tolerances.

We based our analysis on the extent to which, as of September 2008, MSIS captured
data elements that MIG identified as those that can assist in Medicaid fraud, waste, and abuse
detection. Although not comprehensive or specifically required by statute, MIG, other CMS
components, Department of Justice, and OIG identified these data elements as useful to detect
fraud, waste, and abuse.

Standards
We conducted this study in accordance with the “Quality Standards for Inspections” approved by
the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

MSIS Data From FYs 2004–2006 Took an Average of 1½ Years After the Initial State Data
Submission Before CMS Released Them to the Public
As of June 22, 2007, 54 percent (1,655 of 3,060) of the FYs 2004–2006 MSIS files that we
reviewed had completed all phases of CMS’s file submission and data validation processes.
These files took on average over 1½ years (595 days) to complete all phases of the processes and
before their release to the public. On average, States took over 6 months (187 days) to submit
files in a CMS-acceptable format. Once States submitted files in acceptable formats, CMS took
over 4 months (127 days) to validate and an additional 9 months (281 days) to release the files to
the public. 46

The remaining 46 percent (1,405 of 3,060) of MSIS files that had not completed file submission
and data validation at the time of our review were in various phases of the processes. States had
not submitted 10 percent of these MSIS files. See Appendix D for the file submission and data
validation status of all 3,060 MSIS files that we reviewed by year.

Table 1 provides, by file type, the average number of days spent in each phase for the
1,655 MSIS files that completed the file submission and data validation processes. See
Appendix E for the average, median, minimum, and maximum days during which MSIS files
spent in each of these phases.




46According to CMS officials, MIG utilizes MSIS data that have not been validated to conduct preliminary fraud,
waste, and abuse analysis. CMS technical comments on OIG’s draft memorandum report, August 2009.


OEI-04-07-00240                             MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 12 – Cindy Mann


               Table 1: Average Days That MSIS Files Spent in Each Phase of the
                            MSIS File Submission and Data Validation Processes
                                                                    Number of Days
            MSIS              Number               Initial       Quality    Final                     Overall
            File Type          of Files       Submission         Review Release                   Processing

            Eligibility              331                 195         287         113                      595
            Claims              1,324                    185           87        323                      595
            All Files           1,655                    187         127         281                      595
            Averages equal the mean processing days of the 1,655 FYs 2004–2006 MSIS files reviewed.
            Source: OIG analysis of the file submission and data validation status of FYs 2004–2006 MSIS
            files as of June 2007.



States submitted nearly two-thirds of the initial MSIS file submissions after the CMS due dates.
Of the files that had completed initial file submission and data validation, States submitted
63 percent (1,041 of 1,655) after the CMS due dates. All but two States submitted at least one
initial MSIS file submission after the due dates. Of those, 32 States submitted 31 percent
(513 of 1,655) of the initial MSIS file submissions over 6 months after the due dates.

Table 2 provides the number of initial MSIS State file submissions reviewed that occurred after
the due dates and the number of States submitting those files.


                    Table 2: Initial File Submissions That Occurred After the CMS Due Dates
                                                               Submissions Received               Submissions Received Over
              MSIS                    Files                 After the CMS Due Dates       6 Months After the CMS Due Dates *
              File Type        Reviewed          Files     Percentage **     States       Files   Percentage **         States
              Eligibility             331        192                58%         44         95             29%              27
              Claims                 1,324       849                64%         48        418             32%              31
              All                    1,655     1,041                63%         49        513             31%              32
              * This group is a subset of all submissions received after the due dates.
              ** Percentages pertain to aggregate characteristics of MSIS file types and will not sum to 100 percent.
              Source: OIG analysis of the file submission and data validation status of FYs 2004–2006 MSIS files as of
              June 2007.



MSIS files requiring State correction and resubmission took more than five times longer to clear
quality review than those that did not require correction and resubmission. Twenty-six percent
(431 of 1,655) of the State MSIS file submissions required correction and resubmission to clear
CMS quality review. Each State had at least one file that required correction and resubmission.

When MSIS files did not require correction and resubmission, quality review took on average
2 months (63 days). When MSIS files required State correction and resubmission, the quality
review took on average 10 months (310 days), more than five times longer.

A greater percentage of eligibility files than claims files required correction and resubmission to
complete quality review. Over 50 percent (176 of 331) of eligibility files from 48 States required


OEI-04-07-00240                                          MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 13 – Cindy Mann


correction and resubmission to complete quality review. In contrast, less than
20 percent of claims files (255 of 1,324) from 46 States required correction and resubmission to
complete quality review.

CMS officials reported that midyear changes in State eligibility requirements often require States
to correct and resubmit the MSIS eligibility files from previous quarters. As a result, MSIS
eligibility files generally took longer to complete quality review than the claims files. On
average, the 176 eligibility files requiring correction and resubmission took over a year (400
days) to complete quality review. The 255 claims files requiring correction and resubmission
completed quality review, on average, in just over 8 months (247 days). In contrast, on average,
eligibility files not requiring correction and resubmission completed quality review in just over
5 months (160 days), and claims files not requiring State correction and resubmission completed
quality review in just over 1½ months (49 days).

Table 3 provides the number of days that the MSIS files we reviewed spent in quality review.
This table compares files that required correction and resubmission to those that did not.


         Table 3: Number of Days That State MSIS File Submissions Spent in Quality Review
                                       State MSIS Files Requiring Correction and       State MSIS Files Not Requiring Correction
                                                                  Resubmission                               and Resubmission
   MSIS                 Files                                            Average                                         Average
   File Type       Reviewed          Files   Percentage *      States     Days **     Files   Percentage *   States      Days **
   Eligibility           331         176            53%           48         400      155            47%         38         160
   Claims              1,324         255            19%           46         247    1,069            81%         49          49
   All                 1,655         431            26%           51         310    1,224            74%         51          63
   * Percentages pertain to aggregate characteristics of MSIS file types and will not sum to 100 percent.
   ** Average days required to clear the quality review phase of the MSIS file submission and data validation process.
   Source: OIG analysis of the file submission and data validation status of FYs 2004–2006 MSIS files as of June 2007.



CMS held validated claims files nearly three times longer than validated eligibility files, before
releasing them to the public. Although MSIS claims files often completed quality review before
eligibility files, CMS did not release the validated MSIS files until all five of the State’s
quarterly file submissions (four claims files and one eligibility file) completed quality review.
CMS held validated MSIS files for over 9 months (281 days), on average, before releasing the
data to the public. These delays occurred because CMS was waiting for the companion files to
complete quality review before releasing all five related claims and eligibility files
simultaneously to the public. The final release phase accounted for nearly half (47 percent) of
the average time MSIS files spent in all phases of file submission and data validation




OEI-04-07-00240                                         MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 14 – Cindy Mann


processes. 47 However, users do not always need access to all five validated MSIS files to
identify potentially fraudulent trends. 48

CMS held validated MSIS eligibility files for nearly 4 months (113 days) on average before
releasing the data to the public while waiting for companion files to complete quality review.
In contrast, CMS held validated MSIS claims files for nearly 11 months (323 days) on average,
nearly three times longer, for the same reason.

CMS Did Not Fully Disclose or Document Information About the Accuracy of MSIS Data
CMS released MSIS data to the public without disclosing or documenting individual State
adjustments to the error tolerances in either the MSIS Data Dictionary or MSIS “Data
Anomalies/Issues Report.” The MSIS Data Dictionary reflects only the established national
error tolerance levels, and the “Data Anomalies/Issues Report” reflects only quality review
results, not State-level error tolerance level changes from the National level.

As of June 2007, 63 percent (1,528 of 2,442) of CMS’s active data validation error tolerance
adjustments increased the error tolerances to values greater than published defaults. The 1,528
adjustments involved 75 percent (191 of 255) of all MSIS data elements and affected at least one
MSIS file submission from each State. CMS periodically adjusts individual State error
tolerances to allow particular files or sets of files to pass data validation tests (e.g., when State’s
data systems are unable to accommodate MSIS file formats, or unique State coding issues trigger
false errors). However, it did not document and/or disclose information about the accuracy of
adjusting these error tolerances to a value greater than published defaults.

CMS did not fully or accurately disclose error tolerance adjustments and resulting error rates to
MSIS data users. Neither the MSIS Data Dictionary nor the MSIS “Data Anomalies/Issues
Report” fully discloses changes made to individual State MSIS error tolerance levels. The MSIS
Data Dictionary describes error tolerances as defaults and indicates that adjustments are “based
on special State circumstances.” However, CMS did not identify any of the State-specific error
tolerance adjustments in the MSIS Data Dictionary.

The MSIS “Data Anomalies/Issues Report” referenced 4 of the 1,528 active error tolerance
adjustments that increased the error tolerances to values greater than published defaults.
However, one of the four references did not disclose the adjusted error tolerance level and two of
the four references disclosed incorrect adjusted error tolerance levels. In addition, the MSIS
“Data Anomalies/Issues Report” posted to CMS’s Web site was over 3 years old at the time of



47 The 281 days during which CMS held validated MSIS files is nearly half (47 percent) of the 595 days it took
CMS on average to validate and release for public use the 1,655 FYs 2004–2006 MSIS files reviewed.
48 Users can utilize the unique MSIS beneficiary identification numbers contained in the MSIS claims files to
identify potentially fraudulent Medicaid billing patterns. If necessary, users can also utilize prior quarter’s validated
MSIS eligibility file for the preliminary identification of these beneficiaries.


OEI-04-07-00240                                MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 15 – Cindy Mann


our review. 49 Furthermore, CMS did not publicize error rates resulting from undisclosed error
tolerance adjustments. For example, CMS did not post error reports to its public Web site.

CMS did not document the justification and approval of error tolerance adjustments. CMS
could not provide documentation for the justification and approval of the 1,528 active error
tolerance adjustments that increased the error tolerances to values greater than published
defaults. Just over half of these error tolerance increases (765 of 1,528) had been in place for
over 7 years. According to CMS officials, States are notified of error tolerance adjustments, but
the justification and approval of individual adjustments are not logged or documented. See
Appendix F for the number of undocumented error tolerance adjustments CMS made per year.

Twenty-nine percent of CMS’s undocumented error tolerance adjustments increased MSIS data
validation error tolerances to 100 percent. Twenty-nine percent (446 of 1,528) of CMS’s
undocumented error tolerance adjustments we reviewed increased the default error tolerance
from 5 percent or less to 100 percent. These undocumented error tolerance adjustments allowed
the affected State MSIS files to clear quality review with an unknown number of errors. The
446 adjustments occurred between April 1999 and May 2007, involved 72 MSIS data elements,
and affected at least one MSIS file submission from all States.

For example, between August 1999 and December 2003, CMS made 17 adjustments affecting
13 States to increase the MSIS “Diagnosis-Code-Principal” data element error tolerance level
from 5 percent to 100 percent. 50 See Appendix G for the date CMS adjusted the MSIS
“Diagnosis-Code-Principal” data element error tolerance in each of the 13 States.

MSIS Did Not Capture Many of the Data Elements That Can Assist in Fraud, Waste, and
Abuse Detection
There are no requirements for MSIS to contain specific data elements. However, MSIS does not
currently capture a number of data elements that can assist in fraud, waste, and abuse detection.
For example, MSIS does not include all data elements that MIG has identified as assisting in
fraud, waste, and abuse detection.

MSIS did not capture almost half of the consolidated data elements we reviewed that MIG
identified as useful for fraud, waste, and abuse detection. The consolidated MSIS data elements
did not capture 46 percent (46 of 100) of the consolidated data elements reviewed that MIG
identified as useful for fraud, waste, and abuse detection. 51 Data elements were missing in all
four categories that we developed for our review:

49 As of October 1, 2008, the MSIS “Data Anomalies/Issues Report” linked to CMS’s MSIS Data public Web site
was dated September 5, 2005. Available online at
http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/02_MSISData.asp. Accessed on December 1, 2008.
50 The MSIS Diagnosis-Code-Principal data element contains the code for the principal diagnosis on the claim.
Principal diagnosis is the condition chiefly responsible for a patient’s admission.
51 We compared 85 MSIS data elements consolidated from the MSIS Data Dictionary to 100 data elements
consolidated from MIG’s list of 182 data elements. MIG identified these data elements in collaboration with other
CMS components.


OEI-04-07-00240                             MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 16 – Cindy Mann


•     Service Provider Identifiers
•     Procedure, Product, and Service Descriptions
•     Billing Information
•     Beneficiary and Eligibility Information

See Appendix C for comparisons of the consolidated data elements MIG identified as assisting in
fraud, waste, and abuse detection to the consolidated MSIS data elements in each of these four
categories.

MSIS did not capture over half of the consolidated Medicaid Service Provider Identifier data
elements reviewed. MSIS did not capture 55 percent (11 of 20) of the Medicaid Service Provider
Identifier data elements we consolidated from the list of data elements that MIG identified as
assisting in fraud, waste, and abuse detection. For example, MSIS did not capture the referring
provider’s identification number. The referring provider is the physician who ordered the
medical procedure, product, or service. Without the referring provider identification number,
fraud analysts cannot use MSIS data to assess whether a qualified physician submitted the order
as required to receive certain medical benefits. In a 2002 report, OIG used referring provider
identification numbers to estimate that Medicare paid $61 million for improperly documented
services in 1999. 52

MSIS did not capture almost half of the consolidated Medicaid Procedure, Product, and Service
Description data elements reviewed. MSIS did not capture 48 percent (16 of 33) of the Medicaid
Procedure, Product, and Service Description data elements we consolidated from the list of data
elements that MIG identified as assisting in fraud, waste, and abuse detection. For example,
MSIS did not capture data elements that specify the tooth number, quadrant, or surface subject
for dental procedures. Without these details, fraud analysts would have difficulty using MSIS
data to detect fraudulent Medicaid claims for duplicate or medically unnecessary dental
procedures. Because MSIS did not include the necessary data elements, OIG obtained Medicaid
data from individual States for its 2007 report that incorrect information about the tooth surface
subject to dental procedures contributed to an estimated $12 million in improper Medicaid
payments in 2003. 53

MSIS did not capture over one-third of the consolidated Medicaid Billing Information data
elements reviewed. MSIS did not capture 42 percent (15 of 36) of the Medicaid Billing
Information data elements we consolidated from the list of data elements that MIG identified as
assisting in fraud, waste, and abuse detection. For example, MSIS did not capture dispensing fee
payment information. Without details regarding fees paid, fraud analysts cannot use MSIS data
to assess whether the total amounts claimed and reimbursed contain inappropriate fees. For
example, in a 2008 report, OIG analyzed data obtained directly from States to determine that



52   “Durable Medical Equipment Ordered With Surrogate Physician Identification Numbers,” OEI-03-01-00270.
53   “Improper Payments for Dental Services,” OEI-04-04-00210.


OEI-04-07-00240                             MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 17 – Cindy Mann


Medicaid dispensing fee reimbursement rates were about $2 higher than the average Medicare
Part D dispensing fee. 54

MSIS did not capture over one-third of the consolidated Medicaid Beneficiary and Eligibility
Information data elements reviewed. MSIS does not capture 36 percent (4 of 11) of the
Medicaid Beneficiary and Eligibility Information data elements we consolidated from the list of
data elements that MIG identified as useful for fraud, waste, and abuse detection. Three of the
four missing data elements were for the beneficiary’s name (i.e., first, middle, and last name).
Absence of beneficiary names may hinder analysts’ ability to reliably match Medicaid claims
data to other data sources for fraud, waste, and abuse data analysis and detection. Specifically,
according to CMS, the link between data sources would be more reliable if MSIS captured the
beneficiary’s name. 55

CONCLUSION

MSIS is the only source of nationwide Medicaid claims and beneficiary eligibility information.
CMS collects MSIS data directly from States to, among other things, assist in detecting fraud,
waste, and abuse in the Medicaid program. Timely, accurate, and comprehensive MSIS data can
contribute to more effective health care fraud, waste, and abuse identification and prevention.

We determined that during FYs 2004–2006, MSIS data were an average of 1½ years old when it
was released to all users. In addition, CMS did not fully disclose or document information about
the accuracy of MSIS data. Furthermore, MSIS did not capture many of the data elements that
can assist in fraud, waste, and abuse detection.

Our results indicate opportunities for States and CMS to reduce the timeframes for file
submission and validation, respectively. Furthermore, there are opportunities for CMS to
improve the documentation and disclosure of error tolerance adjustments; and expand current
State Medicaid data collection and reporting to further assist in fraud, waste, and abuse detection.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-04-07-00240 in all correspondence.




54 “Review of the Relationship Between Medicare Part D Payments to Local, Community Pharmacies and the
Pharmacies’ Drug Acquisition Costs,” A-06-07-00107.
55 For example, CMS’s Enterprise Cross-Reference Database matches identification information from three
independent data sources: (1) Medicare’s Enrollment Database, (2) the Outcome and Assessment Information Set,
and (3) MSIS to identify Medicaid beneficiaries who are also eligible for Medicare benefits. The Medicare
Enrollment Database and the Outcome and Assessment Information Set include the beneficiary’s name; MSIS does
not.


OEI-04-07-00240                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 18 – Cindy Mann


APPENDIX A

Databases Dependent on Medicaid Statistical Information System Data

Medicaid Statistical Information System (MSIS) data are used as a source of information for the
following Centers for Medicare & Medicaid Services (CMS) databases:

The MSIS State Summary Data Mart: The MSIS State Summary Data Mart generates Medicaid
eligibility and overall program utilization statistics. The MSIS State Summary Data Mart extracts
data from both validated MSIS eligibility and claims files posted to the production database. 56
This data mart is accessible to the public via the Internet.
The MSIS Drug Utilization Data Mart: The MSIS Drug Utilization Data Mart generates Medicaid
drug utilization statistics for groups of drugs. The MSIS Drug Utilization Data Mart extracts MSIS
prescription drug information only from validated MSIS claims files posted to the production
database. This system is not dependent upon Medicaid beneficiary information from validated
MSIS eligibility files. 57 This data mart is accessible to the public via the Internet.
The Medicaid Analytical Extract: The Medicaid Analytical Extract is a set of person-level data
files of Medicaid eligibility, service utilization, and payments. The database extracts data from
both validated MSIS eligibility and claims files posted to the production database to convert the
fiscal year-based MSIS quarterly files into calendar year files. These data are only accessible to
users who enter into a data use agreement with CMS. 58
The Enterprise Cross-Reference Database: The Enterprise Cross-Reference (ECR) Database
matches identification information from three independent data sources: (1) the Medicare
Enrollment Database, (2) the Outcome and Assessment Information Set, and (3) MSIS. The
ECR Database identifies name, Social Security number, and gender from each system to
establish linkages and identify Medicare beneficiaries who are also eligible for Medicaid benefits
(dual-eligible beneficiaries). The ECR Database extracts this information from validated MSIS
claims files posted to the production database. These data are not accessible to the public. 59

The Medicaid Integrity Group Data Engine: CMS stores the MSIS data on this system to support
CMS fraud, waste, and abuse analysis efforts and assist Medicaid Integrity Group contractors
perform postpayment provider audits. These data are not accessible to the public.60


56 CMS, MSIS State Summary Data Mart. Available online at http://msis.cms.hhs.gov/. Accessed on December 1,
2008.
57 CMS, MSIS Drug Utilization Data Mart. Available online at http://msis.cms.hhs.gov/drugmart.htm. Accessed on
December 1, 2008.
58 CMS, Medicaid Analytical Extract Web site. Available online at
http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo. Accessed on December 1, 2008.
59 CMS, “Enterprise Cross-Reference User Guide,” January 2007.
60 CMS technical comments on OIG’s draft memorandum report, August 2009.




OEI-04-07-00240                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 19 – Cindy Mann


APPENDIX B

Characteristics of Medicaid Statistical Information System Error Tolerance Adjustments

           Medicaid Statistical Information System Data Validation Error                        Number of
                     Tolerance Adjustments as of June 2007                                     Adjustments

          Inactive Error Tolerance Adjustments

          Adjustments to invalid Medicaid Statistical Information System (MSIS) file
          type/data element combinations (e.g., adjustments to “Age” data elements that do
          not exist in MSIS claims files)                                                             3,470

          Adjustments to data elements not subjected to data validation tests
          (e.g., systemically generated and header data elements)                                     1,759

          Adjustments that change error tolerances to levels already established by
          programmed defaults                                                                         1,204

          Adjustments to unused data elements                                                          693

          Adjustments to U.S. Territory MSIS files not currently collected by the
          Centers for Medicare & Medicaid Services                                                      71

                                                   Inactive Error Tolerance Adjustments               7,197

                                                                         Percentage of Total           75%

          Active Error Tolerance Adjustments

          Adjustments that change programmed defaults to error tolerance levels
          documented in the MSIS Data Dictionary                                                       914

          Adjustments that increase programmed defaults above error tolerance levels
          documented in the MSIS Data Dictionary (1,528 of 2,442 = 63% of Total Active
          Adjustments)                                                                                1,528

                                                      Active Error Tolerance Adjustments              2,442

                                                                         Percentage of Total           25%

                           Total Inactive and Active Error Tolerance Adjustments                      9,639




OEI-04-07-00240                                    MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 20 – Cindy Mann


APPENDIX C

Comparison of Medicaid Data Elements
The following tables compare 100 data elements we consolidated from a list of 182 data
elements the Medicaid Integrity Group (MIG) identified, in collaboration with other components
in the Centers for Medicare & Medicaid Services (CMS), Department of Justice, and Office of
Inspector General (OIG) officials, as useful for Medicaid fraud, waste, and abuse analysis
(hereinafter referred to as MIG-identified data elements) to 85 similar data elements we
consolidated from 255 Medicaid Statistical Information System (MSIS) data elements. Blank
MSIS data element fields indicate that MSIS does not contain similar data elements. We
grouped the consolidated data elements into four categories that we developed for our review:

•    Service Provider Identifiers

•    Procedure, Product, and Service Descriptions

•    Billing Information

•    Beneficiary and Eligibility Information

         Table C-1: Comparison of MIG and MSIS Medicaid Service Provider Identifier Data Elements

                         MIG Data Elements                                                        MSIS Data Elements
01     Provider Billing Name
02     Provider Business Employer Identification (ID) Number
03     Provider Business Entity
04     Provider Business Owner Name
05     Provider Business State
06     Provider Business Street Address
07     Provider Business Town/City
08     Provider Business/Practice Name
09     Provider Category                                                        01      Provider-Taxonomy
10     Provider ID – Admitting                                                  02      Provider-ID-Number-Servicing
11     Provider ID – Billing                                                    03      Provider-ID-Number-Billing
12     Provider ID – Prescriber                                                 04      Provider-ID-Number-Servicing
13     Provider ID - Prescriber Drug Enforcement Agency ID                      05      Provider-ID-Number-Servicing
14     Provider ID – Referring
15     Provider ID – Servicing                                                  06      Provider-ID-Number-Servicing
16     Provider ID                                                              07      National-Provider-ID
17     Provider License/Certification Number
18     Provider Servicing Flag
19     Provider Specialty                                                       08      Specialty-Code
20     Provider Type                                                            09      Provider-Taxonomy
Source: OIG comparison of data elements described in the CMS MSIS Data Dictionary, Release 3, effective February 15, 2009, to data elements
MIG identified as useful for Medicaid fraud, waste, and abuse data analysis and detection as of September 2008.




OEI-04-07-00240                                          MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 21 – Cindy Mann



     Table C-2: Comparison of MIG and MSIS Medicaid Procedure, Product, and Service Description Data
                                                                 Elements

                            MIG Data Elements                                                        MSIS Data Elements
01      Admission Date                                                               01        Admission-Date
02      Admission Diagnosis Code                                                     02        Diagnosis-Code
03      Brand Necessary Drug Indicator
04      Diagnosis Code                                                               03        Diagnosis-Code
05      Diagnostic Related Group (DRG) Code                                          04        DRG
06      Discharge Hour
07      DRG Allowed Charge/DRG Rate
08      DRG Allowed Charge Source                                                    05        DRG Indicator
09      DRG Code Description
10      Drug Name
11      Drug Type (Brand/Generic)
12      Explanation of Benefit Code
13      National Drug Code                                                           06        National-Drug-Code
14      Nursing Facility Indicator                                                   07        Nursing-Facility-Days
15      Package Size of Drug Dispensed
16      Patient Discharge Code                                                       08        Patient-Status
17      Per Diem Rate
18      Place of Service                                                             09        Place-of-Service
19      Prescription Dispensed Date
20      Prescription Written Date                                                    10        Date-Prescribed
21      Procedure (Proc) Code                                                        11        Proc-Code
22      Procedure Code Description
23      Procedure Code Modifier                                                      12        Proc-Code-Mod
24      Service End Date                                                             13        Ending-Date-of-Service
25      Service Start Date                                                           14        Beginning-Date-of-Service
26      Surgery Date                                                                 15        Proc-Date-Principal
27      Therapeutic Class of Drug
28      Tooth Number
29      Tooth Quadrant
30      Tooth Surface
31      Type of Admission
32      Type of Bill                                                                 16        Type-of-Claim
33      Type of Facility                                                             17        Place-of-Service
Source: OIG comparison of data elements described in CMS’s MSIS Data Dictionary, Release 3, effective February 15, 2009, to data elements
MIG identified as useful for Medicaid fraud, waste, and abuse data analysis and detection as of September 2008.




OEI-04-07-00240                                          MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 22 – Cindy Mann



               Table C-3: Comparison of MIG and MSIS Medicaid Billing Information Data Elements
                             MIG Data Elements                                                         MSIS Data Elements
01      Amount Billed                                                                   01       Amount-Charged
02      Amount of Timed Anesthesia Units Billed                                         02       Service-Code-Mod
03      Amount Paid                                                                     03       Medicaid-Paid-Amount
04      Amount Paid by Other Insurance                                                  04       Other-Third-Party-Payment
05      Amount Paid for DRG Outlier Payments
06      Average Wholesale Price of Prescription
07      Control Number of Claim                                                         05       Internal-Control-Number-Original
08      Control Number Per Item                                                         06       Line-Number-Original
09      Date Paid                                                                       07       Date-of-Payment-Adjudication
10      Dispense Fee Paid
11      Drug Price Paid by System
12      Drug Strength
13      Final Paid Claim Indicator
14      Manual Override/Forced Claim Indicator
15      Medicare Allowed Amount                                                         08       Medicare-Coinsurance-Payment
16      Medicare Coinsurance Computed                                                   09       Medicare-Coinsurance-Payment
17      Medicare Coinsurance Reported                                                   10       Medicare-Coinsurance-Payment
18      Medicare Covered Drug Indicator
19      Medicare Crossover Amount Paid                                                  11       Medicare-Coinsurance-Payment
20      Medicare Crossover Date Paid
21      Medicare Deductible Computed                                                    12       Medicare-Coinsurance-Payment
22      Medicare Deductible Reported                                                    13       Medicare-Coinsurance-Payment
23      Net Claim Charge                                                                14       Amount-Charged
24      Number of Days Not Reimbursable
25      Number of Days Reimbursed                                                       15       Medicaid-Covered-Inpatient-Days
26      Number of Days Supplied                                                         16       Days-Supply
27      Number of Refills                                                               17       New-Refill-Indicator
28      Number of Units Billed                                                          18       Quantity-of-Service
29      Number of Units Paid                                                            19       UB-Rev-Units
30      Prior Authorization Number
31      Quantity Billed                                                                 20       Quantity-of-Service
32      Remittance Advice Number
33      Revenue Code                                                                    21       UB-Revenue-Code
34      Split Claim Indicator
35      Suspended Claim Date
36      Total Charges Not Covered
Source: OIG comparison of data elements described in CMS’s MSIS Data Dictionary, Release 3, effective February 15, 2009, to data elements MIG
identified as useful for Medicaid fraud, waste, and abuse data analysis and detection as of September 2008.




OEI-04-07-00240                                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 23 – Cindy Mann



          Table C-4: Comparison of MIG and MSIS Medicaid Beneficiary and Eligibility Data Elements
                             MIG Data Elements                                                         MSIS Data Elements
01      Recipient County Code                                                           01       County-Code
02      Recipient Date of Birth                                                         02       Date-Of-Birth
03      Recipient Eligibility Code                                                      03       Eligibility-Group
04      Recipient Eligibility Reason Code                                               04       Basis-of-Eligibility
05      Recipient Family/Client ID
06      Recipient First Name
07      Recipient ID Number                                                             05       MSIS-ID-Number
08      Recipient Last Name
09      Recipient Middle Name
10      Recipient State Code                                                            06       State-Abbreviation
11      Recipient ZIP Code                                                              07       ZIP-Code
Source: OIG comparison of data elements described in CMS’s MSIS Data Dictionary, Release 3, effective February 15, 2009, to data elements MIG
identified as useful for Medicaid fraud, waste, and abuse data analysis and detection as of September 2008.




OEI-04-07-00240                                           MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 24 – Cindy Mann


APPENDIX D

Status of Medicaid Statistical Information System Files Reviewed by Year

The table below shows the number of Medicaid Statistical Information System (MSIS) files that
we reviewed (1) that had not yet been submitted by States to the Centers for Medicare &
Medicaid Services (CMS), (2) that were in the CMS data validation process, and (3) that had
been released by CMS as valid data.

              Number of MSIS Files Reviewed in Each CMS Processing Phase by Year
                                Not             In    Released as
            Fiscal Year  Submitted     Processing           Valid       Total
            2004                  0                    0                1,020       100%       1,020      100%
            2005                 40      4%          440     43%          540        53%       1,020      100%
            2006*               258     25%          667     65%           95         9%       1,020      100%
            2004–2006           298     10%        1,107     36%        1,655        54%       3,060      100%
            * Because of rounding, the fiscal year (FY) 2006 percentages do not total 100 percent.
            Source: Office of Inspector General analysis of 3,060 FYs 2004–2006 State MSIS eligibility and claims
            file submissions.




OEI-04-07-00240                                    MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 25 – Cindy Mann


APPENDIX E

Days That Medicaid Statistical Information System Files Spent in Processing


            Average, Median, Minimum, and Maximum Days That Validated Medicaid
                Statistical Information System Files Spent in All Phases of the File
                                 Submission and Data Validation Process
                                                  Average            Median         Minimum           Maximum
         File Type                  Files
                                                     Days             Days              Days              Days
         Eligibility                  331                595               572                70             1,057
         Claims                      1,324               595               567                70             1,095
         All Files                   1,655               595               567                70             1,095
         N=1,655 fiscal years (FY) 2004-2006 State Medicaid Statistical Information System (MSIS) file
         submissions that had cleared all three phases of the file submission and data validation process as of
         June 2007.
         Source: Office of Inspector General analysis of 3,060 FYs 2004–2006 State MSIS eligibility and claims
         file submissions.




OEI-04-07-00240                                      MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 26 – Cindy Mann


APPENDIX F

Number of Undocumented Medicaid Statistical Information System Error Tolerance
Adjustments by Year

               Undocumented Active Medicaid Statistical Information System Data
                    Validation Error Tolerance Adjustments From 1999 to 2007
              Year of                          Number of                Percentage
              Undocumented                 Undocumented     of Total Undocumented
              Adjustment                     Adjustments               Adjustments
              1999                                                    249                                    16%
              2000                                                    516                                    34%
              2001                                                    116                                     8%
              2002                                                    103                                     7%
              2003                                                     57                                     4%
              2004                                                    239                                    16%
              2005                                                     92                                     6%
              2006                                                     89                                     6%
              2007                                                     67                                     4%
                Overall                                             1,528                                   100%
              N=1,528 active adjustments that increased Medicaid Statistical Information System (MSIS) data
              validation error tolerances over the default levels documented in the MSIS Data Dictionary.
              Because of rounding, the percentages do not total 100 percent.
              Source: Office of Inspector General analysis of 9,639 error tolerance adjustments programmed
              into the MSIS Data Validation program in June 2007.




OEI-04-07-00240                                   MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse
Page 27 – Cindy Mann


APPENDIX G

Dates of Medicaid Statistical Information System Error Tolerance Adjustments

The table below shows the dates when the Centers for Medicare & Medicaid Services adjusted
the error tolerances of the Medicaid Statistical Information System (MSIS) Diagnosis-Code-
Principal data element from 5 percent to 100 percent for 13 States. These adjustments allowed
the affected MSIS files to clear quality review with an unknown number of errors.

                     MSIS “Diagnosis-Code-Principal” Error Tolerances Adjusted
                                  From 5 Percent to 100 Percent
                  MSIS File Type                State           Adjustment Date
                  Inpatient Claims                               DC                  December 15, 2003
                                                                 GA                         July 19, 2000
                                                                  LA                    January 05, 2000
                                                                  NV                      March 13, 2000
                                                                 ND                  November 17, 1999
                                                                 OH                      August 18, 1999
                                                                  SC                    October 12, 1999
                                                                  SD                      March 16, 2000
                                                                  TX                 December 21, 2000
                                                                 WA                         July 18, 2000
                                                                 WV                 September 21, 1999
                                                                 WY                         May 26, 2000
                  Other Claims                                    LA                     January 5, 2000
                                                                  NV                       March 9, 2000
                                                                  TN                    February 1, 2001
                                                                  TX                 December 26, 2000
                  Source: Office of Inspector General analysis of 9,639 error tolerance adjustments
                  programmed into the MSIS Data Validation program in June 2007.




OEI-04-07-00240                                   MSIS Data Usefulness For Detecting Fraud, Waste, and Abuse
